                      0


      YEAR 2000 REPORTING FOR DEFENSE FINANCE AND
     ACCOUNTING SERVICE CLEVELAND CENTER SYSTEMS



Report No. 98-112                          April 17, 1998




              Office of the Inspector General
                  Department of Defense
   Additional Information and Copies

   To obtain additional copies of this audit report, contact the Secondary Reports
   Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
   (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
   General, DOD Home Page at: www.dodig.osd.mil.

   Suggestions for Audits

   To suggest ideas for or to request future audits, contact the Planning and
   Coordination Branch of the Analysis, Planning, and Technical Support
   Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
   and requests can also be mailed to:

                      OAIG-AUD (ATIN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

   Defense Hotline

   To report fraud, waste, or abuse, contact the Defense Hotline by calling
   (800) 4249098; by sending an electronic message to
   Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
   Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
   is fully protected.




Acronyms


                        Automated Disbursing System
EZ(C3I)                 Assistant Secretary of Defense (Command, Control,
                            Communications and Intelligence)
BEBS                    Book Entry Bond System
CIO                     Chief Information Officer
DFAS                    Defense Finance and Accounting Service
DISA                    Defense Information Systems Agency
DIST                    Defense Integration Support Tools
DRAS                    Defense Retiree and Annuitant Pay System
EC/ED1                  Electronic Commerce/Electronic Data Interchange
FIRS                    Financial Inventory Reporting System
GAO                     General Accounting Office
                        Inspector General
FMB                     Office of Management and Budget
POC                     Point of Contact
;;;(C’                  Under Secretary of Defense (Comptroller)
                        Year 2000
                             INSPECTOR     GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                          April 17, 1998




MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE CLEVELAND CENTER


SUBJECT: Audit Report on Year 2000 Reporting for Defense Finance and Accounting
         Service Cleveland Center Systems (Report No. 98-l 12)


        We are providing this report for your information and use. This is one in a
series of reports we plan to issue. The purpose of the reports is to identify areas of
concern related to Year 2000 efforts at the Defense Finance and Accounting Service.
We previously issued a draft report concerning other Year 2000 initiatives at the
Defense Finance and Accounting Service Cleveland Center. In addition, other reports
have been issued regarding DOD Year 2000 efforts.

       Because this report contains no fmdings or recommendations, written comments
were not required. However, we received written comments from the Defense Finance
and Accounting Service, Director, Information and Technology, requesting a minor
change, clarifying an area of responsibility, and commenting on the classification of the
Defense Integration Support Tools database (see Part III, Management Comments).
We have incorporated this information into the final report.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Kimberley Caprio, Audit Program Director, at (703) 604-
9151 (DSN 664-9139), e-mail kcaprio@dodig.osd.mil, or Mr. Geoffrey Weber, Acting
Audit Project Manager, at (703) 604-9151 (DSN 664-9151), e-mail
gweber@dodig.osd.mil. See Appendix E for the report distribution. The audit team
members are listed inside the back cover.




                                         Robert J. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                       Offlce of the Inspector General, DOD

Report No. 98-112                                                        April 17, 1998
  (Project 7FG-0043.01)


                Year 2000 Reporting for Defense Finance and
                Accounting Service Cleveland Center Systems

                                Executive Summary

Introduction. This is one of a series of reports being issued by the Inspector General,
DOD, in an informal partnership with the Chief Information Officer, DOD, to monitor
DOD efforts to address the Year 2000 computing challenge.

Information technology systems have typically used two digits to represent the year,
such as “97” to represent 1997, to conserve electronic data storage and reduce
operating costs. With the two-digit format, the Year 2000 would be represented as
“00,” making it indistinguishable from 1900. As a result of this ambiguity, computers
and associated systems and application programs that use dates to calculate, compare,
and sort information could generate incorrect results when working with years after
1999. To track and assess the progress in addressing Year 2000 (Y2K) problems, DOD
issued the Y2K Management Plan. The Y2K Management Plan, which provides the
overall strategy for resolving issues, had five phases: awareness, assessment,
renovation, validation, and implementation.

During the five phases, the initial DOD Y2K Management Plan required that the DOD
Components register their systems in the Defense Integration Support Tools database.
The Defense Integration Support Tools database provided DOD-wide information on
hardware platforms, operating systems, application languages, communications, and
interfaces. Managers were to use this information to track and monitor Y2K
compliance for mission-critical and other designated systems.

On February 4, 1998, the Acting Director, Assistant Secretary of Defense (Command,
Control, Communications and Intelligence) issued a memorandum classifying the
Defense Integration Support Tools database as Secret. Because of this designation, the
Defense Finance and Accounting Service cannot access the database to update and
correct system information. The Assistant Secretary of Defense (Command, Control,
Communications and Intelligence) is expected to issue a revised DOD Y2K
Management Plan and clarify the method to be used for sharing Year 20 related
system information in the near future.

Audit Objectives. The overall audit objective was to determine the effectiveness of
the DFAS initiatives for addressing the Y2K computer problem. For this report, we
evaluated whether DFAS:

        l entered all required data elements into the Defense Integration Support Tools
for each system, and

       l verified that information in the Defense Integration Support Tools database
was consistent with information in the DFAS quarterly reports.
Audit Results. To assist DFAS in taking prompt action, we briefed management on
the reporting requirements and reliability of data in the Defense Integration Support
Tools database. DFAS personnel responsible for updating the system information had
not entered all required data elements for each system into the Defense Integration
Support Tools database. DFAS also had not verified that information in the Defense
Integration Support Tools database is consistent with the information in the DFAS
quarterly reports. DFAS initiated actions to address these issues; however, because of
the recent classification of the Defense Integration Support Tools database as Secret,
these actions have been suspended until the appropriate reporting mechanism is
determined.

Management Comments. Because management actions were responsive to
suggestions made during the review of the Defense Integration Support Tools database,
the draft report contained no recommendations and written comments were not
required. However, the DFAS Director, Information and Technology, provided
comments to the draft report. The comments requested a minor change, a clarification,
and addressed the impact of recent access restrictions to the Defense Integration
Support Tools database on their continued implementation of actions to address issues
we identified in the draft report. For management’s comments to the draft report see
Part III, Management Comments.

Audit Response. We incorporated management’s comments for a minor change and
clarification. No further comments are required. When the appropriate mechanism for
sharing the Year 2000 information is agreed upon and established, DFAS must
continue to ensure that information relating to DFAS systems is accurate and complete.




                                          ii
Table of Contents

Executive Summary                                              i

Part I - Audit Results
      Introduction
      Audit Background
      Audit Objective
      DFAS Reporting Requirements for the DIST Database

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology
        Management Control Program                        :;
      Appendix B. Summary of Prior Coverage               16
      Appendix C. IG, DOD, Memorandum to DFAS on DIST
                   Y2K Initiatives                        17
      Appendix D. DFAS Comments on IG, DOD, Memorandum
      Appendix E. Report Distribution                     z


Part III - Management Comments
      DFAS Management Comments                            28
Part I - Audit Results
Introduction
     This audit report, which is one in a series of reports on the Defense Finance and
     Accounting Service (DFAS) Year 2000 (Y2K) initiatives, discusses our review
     of the Defense Integration Support Tools (DIST) database. We previously
     issued a report on other Y2K initiatives at the DFAS Cleveland Center (see
     Appendix B for details of the report).


Audit Background
     DFAS is responsible for DOD finance and accounting functions and the
     information technology used to perform these functions. Each year, DFAS pays
     approximately 4 million military and civilian personnel, 2 million retirees and
     annuitants, and 23 million invoices to contractors and vendors. DFAS quarterly
     reports on Y2K track 196 systems. Of these, the DFAS Cleveland Center
     reports on 76 systems. Y2K issues can affect every aspect of the DFAS finance
     and accounting mission because DFAS relies heavily on computer systems to
     carry out its operations.

     The cause of the Y2K problem is that automated systems typically use two digits
     to represent the year, such as u97” to represent 1997, to conserve electronic
     data storage and reduce operating costs. With the two-digit format, however,
     the Y2K is indistinguishable from 1900. As a result of this ambiguity,
     computers and associated systems and application programs that use dates to
     calculate, compare, and sort information could generate incorrect results when
     working with years after 1999. The calculation of Y2K dates is further
     complicated because Y2K is a leap year. Computer systems and applications
     must recognize February 29,2000, as a valid date. Unless the problem is
     corrected, these automated systems will fail. Therefore, senior management
     must monitor progress closely. To maintain awareness of potential areas of
     concern, both the Office of Management and Budget (OMB) and DOD require
     that the status of Y2K compliance be reported frequently.

     Because of the potential impact on Government computer operations, the
     General Accounting Office (GAO) identified Y2K as a high-risk program. DOD
     and DFAS also identified Y2K as an uncorrected material weakness in their
     Annual Statements of Assurance for FYs 1996 and 1997.

     OMB Reporting Requirements. In May 1997, OMB issued its “Memorandum
     on Computer Difficulties Due to the Y2K -- Progress Reports.” The
     memorandum requires that Y2K progress reports be issued to Congress and the
     public. It also requires the heads of selected Government agencies to report
     quarterly on the status of Y2K efforts, with the initial report due on May 15,
     1997. Each agency is required to report on mission-critical systems, including
     the number of systems that are Y2K compliant, being replaced and repaired,
     and scheduled to be retired.

     DOD Reporting Requirements. As the DOD Chief Information Officer (CIO),
     the Assistant Secretary of Defense (Command, Control, Communications and


                                         2
Intelligence) (ASD[C3Q) issued a memorandum on March 12, 1997, “Y2K
Refined Reporting Requirements for DOD.* The memorandum establishes
quarterly reporting requirements for Y2K assessment and progress throughout
DOD. Reports are intended to show the status of DODY2K efforts and are used
by the CIO to oversee DODY2K efforts and fulfill OMR reporting requirements
at the DODlevel. The memorandum, which also establishes criteria for
reporting mission-critical systems in the DIST database, is published as an
appendix to the DOD Y2K Management Plan.
DOD Y2K Management Plan, Version 1.0, April 1997.            The DOD Y2K
Management Plan provided the overall DODstrategy and guidance for taking
inventory, prioritizing, fixing and retiring systems, and monitoring progress in
resolving Y2K issues. Each DODComponent is responsible for awareness,
assessment, renovation, validation, and implementation. The DODY2K
Management Plan described the five-phase Y2K management process and
designated the DIST database as the official repository for data on the DOD
Components’ automated systems.
        The Fhe-Phase Management Process. Each of the five phases listed
below represents a major Y2K program activity or segment. Target completion
dates range from December 19% through March 1, 1999.
       l Phase I - Awareness. Define the Y2K problem and gain
executive-level support and sponsorship. Establish a Y2K program team and
develop an overall strategy. Ensure that everyone in the organization is fully
aware of the Y2K problem. Target completion date: December 1996.
        l Phase II - Assessment. Assess the impact of Y2K on the enterprise.
Identify core business areas and processes, take inventory, analyze systems that
support the core business areas, and prioritize their conversion or replacement.
Develop contingency plans to handle data exchange issues, lack of data, and bad
data. Identify and secure the necessary resources. Target completion date:
June 1997.
        l Phase III - Renovation. Convert, replace, or eliminate selected
platforms, applications, databases, and utilities. Modify interfaces. Target
completion date: September 1998.
        l Phase IV - Validation. Test, verify, and validate converted or
replaced platforms, applications, databases, and utilities. In an operational
environment, test the performance, functionality, and integration of converted
or replaced platforms, applications, databases, utilities, and interfaces. Target
completion date: January 1999.           .

        l Phase V - Implementation. Implement converted or replaced
platforms, applications, databases, utilities, and interfaces. If necessary,
implement contingency plans for data exchange. Target completion date:
March 1, 1999.
      DIST Database. The DIST database, maintained by the Defense
Information Systems Agency (DISA), contains data on certain automated
systems used by DOD Components, including data on hardware platforms,


                                     3
     operating systems, application languages, communications, and interfaces. The
     DIST database provides DOD-wideinformation that managers can use to track
     and monitor Y2K compliance for mission-critical and other designated systems.
     On February 4, 1998, the Acting Director, ASD(C3I) issued a memorandum
     classifying the Defense Integration Support Tools database as Secret. As a
     result of this designation, access to the DIST database for update and query
     purposes was restricted by the Defense Information Systems Agency.
     Following this action, DFAS stated that they no longer had the ability to enter
     and correct system information in the DIST database. The former DFAS
     Deputy Director for Information Management stated that DFAS had recently
     devoted a significant level of effort in attempting to enter and correct
     information within the DIST. He stated that while DFAS had an internal
     database to track its system inventory, other components would be severely
     affected because of the lack of an alternative means for tracking their system
     inventories and related Y2K information. Further, the Secret classification has
     prevented other users from querying system information that may be critical in
     the coordination of Y2K efforts.
     On March 2,1998, the Assistant Inspector General for Auditing issued a
     memorandum to ASD(C3l) requesting clarification on future intentions
     regarding system information within the DIST database. The memorandum also
     expressed concern about the elimination of a potentially critical source of system
     information from the user community. The ASD(C3I) is expected to address
     access to the DIST database and alternative methods for disseminating systems
     information in the near future. Regardless of the ultimate decision on what
     database to use for Y2K status information, the observations made in this report
     on data integrity remain valid.


Audit Objective

     The overall audit objective was to determine the effectiveness of DFAS
     initiatives to address the Y2K computer problem. For this report, we evaluated
     whether DFAS:
            l  entered all required data elements into the DIST database for each
     system, and
            l  verified that information in the DIST database was consistent with
     information in the DFAS quarterly reports.
     We did not review the management control program as it relates to the overall
     audit objective because DFAS and DODidentified Y2K as an uncorrected
     material weakness in their Annual Statements of Assurance for FYs 19% and
     1997. See Appendix A for a discussion of the audit scope and methodology.




                                         4
      DFAS Reporting Requirements for the
      DIST Database
      Information on the DFAS Cleveland Center systems, as reported in the
      DIST database, was not complete, accurate, and consistent with the DFAS
      Cleveland Center quarterly reports. The inaccuracies occurred because
      DFAS did not:

           l enter all required data elements into the DIST database for each
           system, and

           l verify that system information reported in the DIST database
           was consistent with the DFAS Cleveland Center quarterly reports.

      As a result, the DIST database was unreliable for making decisions about
      Y2K issues. The lack of data integrity could increase the potential for
      system failures because internal and external users rely on the information
      reported, regardless of which database is used as the repository.


Y2K Reporting Requirements
    DFAS system managers are required to report Y2K information on a
    quarterly basis. Specifically, system information should be reported in the
    DIST database, or any successor database, and in the DFAS quarterly
    reports to the Director, Information and Technology. The information in
    both documents should be accurate and consistent. T’he DFAS Annual
    Statement of Assurance for FY 1996 stated that the DIST database would
    be validated and updated for completeness and accuracy by March 1997.


Reporting Requirements for DIST Database

    Purpose of DIST Database. The DIST database was the initial official
    repository for the DOD inventory of information systems. The DIST
    database was established to support a DOD-wide requirement for data
    collection and reporting and decision support. Y2K information is
    reported in the DIST database in order to ensure a thorough and successful
    transition to Y2K compliance for all DOD systems. System managers used
    the DIST database to track the progress of other systems and obtain
    system-related Y2K information. Information in the DIST database also
    assisted the Under Secretary of Defense (Comptroller) (USD[C]) in
    prioritizing systems for Y2K and budget purposes.




                                   5
DFAS Reporting Requirements for the DIST Database


      DOD has issued guidance for DIST reporting. Specifically, the USD(C)
      and the ASD(C3l) issued a memorandum and the DOD Y2K Management
      Plan provided guidance.

              Joint Memorandum. On November 5, 1996, the USD(C) and the
      ASD(C3I), jointly issued a memorandum, “System Interfaces, Data
      Exchanges, and Defense Integration Support Tools. * The memorandum
      required DOD Components to ensure that all information systems are
      registered in the DIST database.

             DOD Y2K Management Plan. DOD Components are required to
      report quarterly to the DIST database and encouraged to report significant
      progress whenever it occurs. According to the DOD Y2K Management
      Plan, April 1997, DOD Components must report all systems in the DIST
      database that are:
                  0   mission-critical systems,
                  0   migratory systems,
                  0   legacy systems,
                  l   systems with a total cost of $2 million per year, and
                  l   systems that interface with a system that meets any of the above
      criteria.


Quarterly Reporting Requirements
      DFAS reports quarterly on the Y2K status of all its systems. DOD and
      DFAS managers use the quarterly reports to monitor Y2K progress and
      decide where to allocate resources. Each DFAS Center prepares a
      quarterly report summar izing the status of its systems. The quarterly
      reports are updated, then reviewed and approved by the DFAS Center
      Director or the Deputy Director, DFAS. The reports are then submitted
      to the DFAS Y2K Project Manager, who consolidates the data into a
      single report. The consolidated report, which tracks progress at the DFAS
      level, is reviewed by the Director, Information and Technology.
      Subsequently, the Director, Information and Technology, issues a less
      comprehensive Y2K quarterly report to ASD(C3I) for inclusion in the
      DOD consolidated Y2K quarterly report to OMB.


GAO Report on DIST Database
      The GAO issued Report No. AIMD-97-112 (OSD Case No. 1395),
      “Defense Computers: Improvements to DOD Systems Inventory Needed
      for Year 2000 Effort,” August 13, 1997. The report states that DOD Y2K




                                             6
                     DFAS Reporting Requirements for the DIST Database


    efforts will be at risk of failure if immediate attention is not given to
    ensuring that the DIST is reliable, complete, and accurate. In response to
    the report, both ASD(C3l) and DISA took immediate action. Specifically,

           l the ASD(C3I) stated that DOD planned to perform a statistical
    sampling of the DIST database to validate its accuracy; and

            l DISA instituted a data quality program for the DIST database,
    which includes purging duplicate and obsolete data and assisting users in
    completing system entries.

    These actions were intended to enable the DIST database to become an
    effective tool for the oversight and day-today management of DOD Y2K
    efforts. Beg-        in August 1997, DOD Components were also
    encouraged to work with the DIST Help Desk to ensure that the correct
    information for each system was in the DIST database, and were invited to
    attend DIST Working Group meetings to identify ways to improve the
    database.


Accuracy of DFAS Cleveland Center Reporting

    We reviewed the 71 systems reported by the DFAS Cleveland Center in
    the DIST database as of December 1997. We also reviewed the DFAS
    October 1997 quarterly report on Y2K submitted to the Director,
    Information and Technology. Information in the DIST database for the
    DFAS Cleveland Center was not complete, accurate, and consistent with
    information in the DFAS Cleveland Center’s quarterly reports.
    Specifically, for 70 of the 71 systems reported by the DFAS Cleveland
    Center in the DIST database, the required data elements had not been
    completed. In addition, for 12 of the 71 systems identified, information in
    the DIST database was not consistent with information in the DFAS
    Cleveland Center’s quarterly reports.

            Consistency of Number of Systems Reported On. The DFAS
    Cleveland Center reported 76 finance and accounting systems in its
    October 1997 quarterly report on Y2K to the Director, Information and
    Technology. For the same period, the DFAS Cleveland Center reported
    71 systems in the DIST database. The variations occurred because:

            l One system is being developed as Y2K compliant and is not
    ready to be reported in the DIST database.

          l One system did not meet the criteria for being reported in the
    DIST database.

            l Three systems were reported in the DIST database as being
    majority owned by another DOD Component.

    For DFAS management, these variations are acceptable.




                                     7
DFAS Report&    Requirements for the DIST Database


     Adequacy of Required Elements Reported in DIST Database. For
     each system, up to 249 data elements can be reported in the DIST
     database. DISA has designated 48 of these data elements as required for
     each system. The 48 data elements relate to hardware, software,
     electronic commerce/electronic data interchange (EUEDI), cost, current
     phase of Y2K compliance, Y2K compliance strategy, and status of
     interfaces with other systems. From this information, a system manager
     can produce a report on “Minimum Required Data Elements
     Completeness, n showing the status of Y2K compliance for each system, to
     facilitate oversight of the agency’s systems in the DIST database.

            Completeness of Required Data Elements in DIST Database.
     DFAS did not complete the required data elements for the December 1997
     DIST database, according to the “Minimum Required Data Elements
     Completeness” report. Specifically, only 1 system for the DFAS
     Cleveland Center completed all 48 of the required data elements.

     The “Minimum Required Data Elements Completeness” report categorized
     the 48 data elements into 8 categories. For each of the eight categories,
     the report identified the extent to which DFAS has completed the required
     data elements for that category. According to the December 1997 report,

              l 70 of 71 systems completed the required data elements for
     description, mission, and organization and POC,

             l 26 of 71 systems have not completed the required data elements
     for hardware,

             l  57 of 71 systems have not completed the required data elements
     for software,

            l 65 of 71 systems have not completed the required data elements
     for EC/EDI,

              l  67 of 71 systems have not completed the required data elements
     for interfaces with other systems, and

            l 58 of 71 systems have not completed the required data elements
     for Y2K compliance.

     The following are examples of systems reported in the DIST database
     during December 1997 for which the required data elements are
     incomplete. (Appendix C provides a list of incomplete required data
     elements for the systems we reviewed.)

             Automated Disbursing System (ADS). ADS is an interim
     migratory system identified by DFAS as one of its top 20 mission-critical
     systems. ADS produces vouchers for disbursements and collections,
     issues payments, processes returned payments, prepares Internal Revenue
     Service Forms W-2 (Wage and Tax Statements), and reports accounting




                                      8
                        DFAS Reporting Requirements for the DI!3T Database


       information. DFAS had identified the system in the DIST database;
       however, they had not completed the required data elements for hardware,
       software, EC/EDI, and interfaces with other systems.

               Book Entry Bond System (BEBS). BEBS provides electronic
       safekeeping of bonds purchased by active duty members until a member
       requests that the bonds be mailed to an address. DFAS had identified the
       system in the DIST database; however, they had not completed the
       required data elements for software, EC/EDI, interfaces with other
       systems, and Y2K compliance.



Comparison of DIST Database and DFAS Quarterly
Reports

       Along with the DFAS quarterly reports to ASD(C3Q the DIST database
       must be kept up-to-date. The DIST database should contain the same
       information as the DFAS quarterly report. We compared the December
       1997 DIST database and the October 1997 DFAS quarterly report and
       identified discrepancies between the two sources of information. Although
       the reporting dates differ, the information from each source should be
       complete and consistent.

       Reliabii    of Information in DIST Database. We selected two DIST
       data elements, current Y2K phase and Y2K compliance strategy, for
       comparing the DIST database to the DFAS Cleveland Center quarterly
       report. The current Y2K phase and compliance strategy’ were chosen
       from those identified in the DOD Y2K Management Plan. For all systems
       at the DFAS Cleveland Center, we compared the phases and strategies
       reported in the DFAS Cleveland Center quarterly report for October 1997
       to those reported in the DIST database as of December 1997. For 12 of
       the 71 systems we reviewed, the DFAS Cleveland Center’s quarterly
       report did not show the same information as the DIST database for the
       current Y2K phase, Y2K compliance strategy, or both. The following are
       2 examples of the 12 systems:

               l  Defense Retiree and Ammitant Pay System. The DIST
       database reported the Y2K compliance strategy as a combination; the
       DFAS Cleveland Center’s quarterly report showed the Y2K compliance
       strategy as field expansion.



’ Compliance strategies identify the procedure to be implemented to make a
 system Y2K compliant. The field expansion strategy increases the size of the
 date field, generally from a two-digit year to a four-digit year, and the
 procedural code and sliding window strategies derive the correct century based
 on the two-digit year. The combination strategy uses more than one of the three
 strategies to accomplish Y2K initiatives.




                                       9
DFAS Reporting Requirements for the DIST Database


               l Fhancial Inventory Reporting System. The DIST database
      reported the Y2K compliance strategy as combination;2 the DFAS
      Cleveland Center’s quarterly report did not designate a Y2K compliance
      strategy.

      Impact of Reporting Discrepancies. Users of the DIST database relied
      on it to help them determine the approach for Y2K-related system changes
      for their systems. Other users need to know the current Y2K phase and
      Y2K compliance strategy to determine the timing and extent of work that
      may be required for their systems. The USD(C) also used the DIST
      database to prioritize systems for Y2K compliance and budgeting.
      Therefore, this information needs to be accurate so that other system
      changes can be properly coordinated. Because the current Y2K phase or
      compliance strategy (or both) are reported incorrectly, internal DFAS
      users and external users are relying on inaccurate information, which may
      lead to delays, system failure, or funding shortages.


Management Actions Taken
       On December 22, 1997, the IG, DOD, sent a memorandum to the
       Director, Information and Technology, on issues concerning the DFAS
       Cleveland Center and the DIST database (see Appendix C). The Director,
       Information and Technology, responded in a memorandum on
       January 16, 1998 (see Appendix D). The Deputy Director agreed with the
       issues identified, and discussed actions under way to correct deficiencies in
       the DIST database for all DFAS systems as well as the DFAS Cleveland
       Center reported systems.

       The corrective actions
                            will be performed in three phases, using an
       approach developed by DFAS. The three-phase plan is as follows:

              l DFAS will perform a complete review of all systems registered
      in the DIST database. The review will identify and eliminate systems that
      f;;;t  belong to DFAS. The milestone for completion was February 10,
            .

               l The DFAS Centers responsible for the systems will identify and
       supply the missing data in the DIST database. The milestone for
       completion was the end of February 1998.

              l DFAS will gather the missing data and work with the DIST
       Help Desk to enter the information into the DIST database. The milestone
       for completion was the end of March 1998.



.‘In the Inspector General (IG), DOD, memorandum to the DFAS Cleveland
  Center on DIST Y2K initiatives, the compliance strategy was erroneously
  identified as procedural code strategy (see Appendix C).




                                        10
                      DFAS Reporting Requirements for the DIST Database


     The Director, Information and Technology, also stated that DFAS has
     eliminated any discrepancies between the DIST database and the DFAS
     quarterly report related to Y2K phases and strategy; however, the
     corrective action was not described.


Conclusion

     We commend DFAS for responding to the issues identified in this report
     and for taking prompt action. The three-phase approach used by DFAS
     should greatly improve the reliability and consistency of information in the
     DOD database and the DFAS quarterly reports. The corrective actions
     should also reduce the risk that DOD and DFAS managers will rely on
     incorrect or inaccurate data, and should reduce the risk of system failure.
     Therefore, we are not making recommendations in this report. However,
     DFAS needs to ensure that the planned actions are completed and that all
     DFAS Centers are informed of the status of ongoing actions. Further,
     while at least three systems reported in the database are not majority
     owned by the DFAS Cleveland Center, DFAS and all of the DFAS
     Centers need to report the correct Y2K status for their minority-owned
     systems to ensure accurate reporting by the majority owner.

     Because of the classification of the DIST database, DFAS cannot complete
     the three-phased plan to correct system information in the DIST and
     address the specific deficiencies outlined in this report. However, DFAS
     must continue to ensure that if the DIST is made available, or if an
     alternative mechanism is established to track system information for Y2K
     purposes, that the information relating to DFAS systems is accurate and
     complete.




                                      11
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology
    Work Performed. This is one of a series of reports being issued by the IG,
    DOD, in an informal partnership with the Chief Information Officer, DOD, to
    monitor DOD efforts to address the Y2K computing challenge. For a list of
    audit projects addressing this issue, see the Y2K World Wide Web page on the
    IGNET (http://www.ignet.gov/).

    This report was based on audit field work performed at the DFAS Cleveland
    Center and its Financial Systems Activity from April through December 1997.

    We reviewed the DFAS Cleveland Center’s DIST database and quarterly Y2K
    report, submitted in October 1997 to the Director, Information and Technology.
    Based on the DOD Y2K Management Plan, we evaluated the reliability of the
    report. We also evaluated the accuracy and completeness of information in the
    quarterly report.

    We interviewed personnel in the Office of the ASD(C31) who issue guidance on
    Y2K reporting, collect Y2K information from the DOD Components, and
    submit the information to OMB. We also interviewed DFAS personnel who are
    responsible for Y2K quarterly reports. We interviewed the DFAS Y2K project
    manager; the Director, DFAS Cleveland Center; the Y2K POC at the DFAS
    Cleveland Center; and system managers in functional and technical areas. We
    also corresponded with the DIST Help Desk.

    We reviewed 71 systems reported on by the DFAS Cleveland Center. For our
    review, we used the October 1997 DFAS quarterly reports and the Defense
    Integration Support Tools (DIST) database. Of the 71 systems we reviewed,
    only 1 system had completed all of the DIST required data elements for the
    DIST database, and 12 systems reported the phase or strategy (or both)
    incorrectly.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling procedures to perform this audit.

    Use of Technical Assistance. We met with technical experts in our Analysis,
    Planning, and Technical Support Directorate to discuss issues relating to
    interface agreements, testing plans, and software development and maintenance.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April through December 1997 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    IG, DOD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.



                                       14
                                                      Appendix A. Audit Process


Management Control Program
    We did not review the management control program because DFAS and DOD
    identified Y2K as an uncorrected material weakness in their Annual Statements
    of Assurance for FYs 1996 and 1997.




                                      15
Appendix B. Summary of Prior Coverage

   The General Accounting Office and the Inspector General, DOD, have
   conducted multiple reviews related to Y2K issues. General Accounting Office
   reports can be accessed over the Internet at http://www.gao.gov. Inspector
   General, DOD, reports can be accessed over the Internet at
   http://www.dodig.osd.mil.




                                     16
Appendix C. IG, DOD, Memorandum                                                      to DFAS
on DIST Y2K Initiatives


                                      INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                        100 ARMY NAVY DWVE
                                      ARLINGTON VIRGINIA 22202




    MEMORANDUM         FOR DEPUTY DIRECTOR,  INFORIMATION               MANAGEMENT
                              DEPUTATE. DEFENSE FINANCE                AND ACCOUNTING
                              SERVICE

    SUBJECT:    Review of Defense Finance and Accounting    Service (DFAS)   Year 2000
                Initiatives



            Our review of the DFAS Year 2000 Initiatives was based on survey and audit field work
    performed at the DFAS Indianapolis and Cleveland Centers and Financial Systems Activities
    from August through December, 1997. This memorandum reports the results from our revie%
    of the Defense Integration Support Tool (DIST) as it relates to Year 2ooO. We used guidance
    contained in the DOD Year 2000 Management Plan, Version 1.0 April 1997 to evaluate rile
    overall effectiveness of DFAS Year 2000 efforts. The review also considered and evaluated the
    use of DFAS regulations and industry’s best practices. as needed.

           We attended the DFAS Year 2000 Summit with you and Mr. Amlin. Acting Director.
    DFAS, on December 15, 1997. During the Summit. we briefed a preliminary issue concerning
    the DIST completeness and reliability. Per your request. we have drafted an assessment of the
    DIST.

            Due IO the nature of Year 2000 efforts, it is our intent to identify potential areas oi
    concern so that DF.4.S Management may address these issues in a timely manner. hlanagen~enr
    is rcquesred to provide comments by January 16. 1997. Comments should describe xtiow
    Ii&W and completion dates of the actions. We may include these and any addirional issues in 3
    draft report at a later date. If there are any questions, pkase contact Mr. Geoffrey Weber,
    Acting Project Manager, at (703) 604-9151 or DSN 664-9151 or h.ls. Kimberly Caprio,
    Program Director at (703) 604-9139 DSN 6649139.




                                             F. Jay Lane
                                               Director
                                  Finance and Accounting Directorate




                                                   17
Appendix     C. IG, DOD Memorandum           to DFAS on Y2K Initiatives




Defense Integration       SUDDO~~   Tools

The Defense Integration Support Tools (DIST) is the official repository for DOD’S
inventory of systems for DOD Components. Registration of DOD Systems in the DIST
is mandatory, according to the November 5, 1996, Memorandum “System Interfaces,
Data Exchanges, and Defense Integration Support Tools,” signed by the Under
Secretary of Defense (Comptroller) and the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence). DOD Components are required to report
Iuarterly to the DIST database. Although the minimum reporting requirement is
quarterly, DOD Components are encouraged to report significant progress when it
3ccurs.

According to the DOD Year 2000 Management Plan, August 1997, DOD Components
must report “ALL” systems which meet or exceed the following criteria in the DIST
For Y2K purposes:

         o   A   mission critical system,
         o   A   migration system,
         o   A   legacy system,
         o   A   system with a $2M total cost per year, and,
         o   A   system that interfaces with a system that meets any one of the above
criteria.

The reason for reporting in the DIST is to ensure a thorough and successful transition
:o Y2K compliance for all DOD systems. By reporting the systems in the DIST, the
Comptroller can determine the importance of the system as it relates to Year 2000 and
lrovide financial support after prioritization of the systems. However, if a system is
lot in the DIST then the Comptroller may assume the system is not worth supporting.

The DIST provides a list of minimum data required to be entered on a system. There
ue 48 required data elements for each system entered which relate to hardware,
software, EC/EDI, Y2K, cost, phase, strategy, interfaces, and several others. The
‘Minimum Required Data Elements Completeness” report provides the percentage of
:ompleteness in the areas of description, mission, organization/point of contact,
lardware, software, EC/EDI, interfaces, Y2K, and the total of completeness for each
;ystem. During our review of the report we found that DFAS-Cleveland had not
:ompleted the minimum required data elements for each system.
‘art of DFAS’s requirements for reporting quarterly to ASD (C31) is keeping the DIST




                                               18
                 Appendix C. IG, DOD, Memorandum          to DFAS on Y2K Initiatives


up-to-date. DFAS develops their own quarterly reporting requirements which reflect
Y2K details and produce a spreadsheet for distribution of these details. According to
DFAS’s instructions, the information in the quarterly report should also be updated in
the DIST. We compared the phase and strategy reported in DFAS’s internal Quarterly
Report dated October 1997, to the phase and strategy reported in the DIST as of
December 4, 1997 for all DFAS-Cleveland. The phase reported relates to the phases
identified in the DOD Management Plan for Year 2000, as does the strategy reported
(field expansion, sliding window, or procedural code). During our review we found
that the DFAS quarterly report and the DIST did not correctly report the phase and
strategy for 12 of the 70 DFAS-Cleveland systems reviewed.

DIST Minimum Reauired Elements
We completed a review of 70 DFAS-Cleveland systems from the DIST report. Our
review determined that DIST information for the 70 systems was not complete and
reliable. Specifically, because

        o only 1 DFAS-Cleveland system provided all of the DIST minimum required
data elements;

        o 60 DFAS-Cleveland systems provided 50-99% of the DIST minimum
required data elements, and;

        o 9 DFAS-Cleveland systems provided O-49% of the DIST minimum required
data elements .

The DFAS-Cleveland systems were missing information in the areas of hardware (25 of
70 systems), software (56 of 70 systems), EC/ED1 (64 of 70 systems), interfaces (66 of
70 systems), Y2K (57 of 70 systems).

Specific examples of missing elements are as follows:

       o ADS is missing information on hardware, software, EC/ED& and interfaces.

       o BEBS is missing information on software, EC/EDI, interfaces, and Y2K.

        o DFRRS is missing information on hardware, software, EC/EDI, and
interfaces.

       o DRAS is missing information on software.

       o DWAS is missing information on software, EC/EDI, and interfaces.




                                           19
Appendix C. IG, DOD Memorandum to DFAS on Y2K Initiatives


       o IFAS is missing information on EC/ED1 and interfaces.

      o PRODS is missing information on hardware, software, EC/EDI, interfaces,
and Y2K.

      o ROTS1 is missing information on hardware, software, EC/EDI, interfaces,
and Y2K.

       o SS is missing information on hardware, software, EC/ED& and interfaces.

      o XDISB is missing information on hardware, software, EC/ED& interfaces,
and Y2K.

DIST Wase and Stratew ReDorting

The following identifies the discrepancies between the DIST and DFAS internal
quarterly report related to the phase and strategy:

        o DRAS - DIST reports the strategy as Combination while the DFAS internal
quarterly report shows the strategy as Field Expansion.

        o RIMS - DIST reports the phase as Assessment while the DFAS internal
quarterly report shows the phase as Renovation.

     o UADPS-SP-E&F - DIST reports the strategy as Field Expansion while the
DFAS internal quarterly report shows the strategy as Sliding Window.

        o UADPS-Level II SF - DIST reports the system as being Replaced while the
DFAS internal quarterly report shows the phase as Renovation and the strategy as
Sliding Window.

        o PWCMIS - DIST reports the strategy as Combination while the DFAS
internal quarterly report does not designate a strategy.

        o FIRS - DIST reports the strategy as Procedural Code while the DFAS
internal quarterly report does not designate a strategy.

        o UADPS-G03/G06 - DIST reports the system as being Replaced while the
DFAS internal quarterly report shows the phase as Renovation and the strategy as
Sliding Window




                                         20
                Appendix C. IG, DOD, Memorandum         to DFAS on Y2K Initiatives




        o MFCS - DIST reports the strategy as Combination while the DFAS internal
quarterly report shows the strategy as Sliding Window.

      o SAC 207 - DIST reports the strategy as Combination while the DFAS
ntemal quarterly report does not designate a strategy.

        o RRMIIP - DIST reports the system as Retiring while the DFAS internal
quarterly report shows the system as being Replaced.

      o CIRS does not report phase or strategy in either the DIST or the DFAS
ntemal quarterly report.

      o UPRIM does not report phase or strategy in the DIST; however, the DFAS
ntemal quarterly report states the system will be replaced.




                                        21
Appendix D. DFAS Comments                                         on IG, DOD,
Memorandum

               DEFENSE   FINANCE          AND        ACCOUNTING                  SERVICE

                          1931   JEFFERSON           DAVIS   HIGHWAY

                             ARLINGTON.         VA    22240-529       1




    IJE‘AS-HQ;s

    MEMORAND      FOR INSFZCTOR GENE:RAL, DEPAR'lIMErdT
                                                      OF DEFEXSE

    SUSZFCT:     Response to the DOD I6 Review of Defense Finance
                 and Accounting Service Year 2OCO Initiatives and
                 :Jse of the Defense Integrated Support Tcol


         The  attached cutlines Defense Finance and Accounting
    Service :DFAS! acrion initiatives for Year 2OciO and the
    Defense Integrated Support Tsols (DIST). These i71.5t.ia t.
                                                              iv es
    will address the areas of concern as outlined by your
    findings.

         DFAS management is aware of the importance of the Year
    2OOC issue and the registration of DFAS sponsored systems in
    tne CLST.




                                     ,’      (‘ytbb3              5   ‘: /ii,,    [;,_:b-._

                                                Robert E. Eudke
                                                Dep'~ry Director for
                                                  Informaricn Management

    Attachment
    as stated




                                          22
Appendix D. DFAS Comments      on IG, DOD, Memorandum




                    DEFENSE  FINANCE   AND ACCOUNTING     SERVICE
                             ACTION   INITIATIVES    FOR
                                     YEAR 2000
                                         AND
                        DEFENSE INTEGRATED     SUPPORT   TOOL


       In regards co ;he issue of the completeness of data
       registered  in the DIST for DFAS systems, there is an cngoinq
       initiative with the DIST Help Desk to address this problem.
       The Lcilowing phased action items are being conSucted
                                                          _- by
       DFhS.

           PXASS  ONE:
           ___.......    This phase calls fcr a complete review of all
       systems that are reyiscered in the D:ST as spcnscred or
       edited by DFAS.     This exercise will identify and ultimately
       eliminate many systems that have been erroneously assigned
       to CFAS.    This action will be completed by
       Fob ruary 10, 199P.    In addirion, system reports will 'be
       generated   for all systems currently tagged as GFAS sponsored
       or edited.     These reports have already been generated.

          PBASZ TWO:     This phase will address each system by t.he
          --":"I
       responsible     DFAS fexter and deternlne what data i.s missing
       1n or=ie!- tc complere the particular DIST data field.       The
       5 s's+.
             (!:i:j
                  repozt.5 ,;eneratcd in Phase Cne :vili be ::i:ebas:.s c.f
       l-his analysis along iJi:h the CIST Minimum R.ocui.:.~d   Data
       Element Cozpietezess      Report for DFAS systems.    CFAS wili
       begin this exercise reviewing the Cle-~elazd (and Indianaptlis
       Centers.     ':'hisphase vi11 be .ongoing tili 211 (Centers ar2
       domoleted.     She estimated completion date for the review is
       end of February 1398.       As each Center i.s ccxmpleted, the
       process wiL1 move into Phase Three.

          ?EASE  THREE :       This bhase vi11 gather ?.he missing data and
                                                                .
       load the information into the DIST.           In nartlcuiar %'i _ r:
       !:aroware and softr;are information, DFAS Lay request the CiST
       3:'clpCask to load adrjitional choices into the p:ck lists in
       order t:: i'ao'ure
                       _-       the necessary system information   (vendors,
       model ?:i~mbers     and   software version numbers, etc. car2iot 'on
       a7utom:3t.~.call jj entered   by a DIST editor:.   The DE'AS goal is
       to co,m.plete this entire initiative by r:i:eend of March 1398.
       Ti.;s
       _..A. three chased approach should address        the issue of DIST
       eonpltteness  and system: sponscrship.

       I .? regards tc the specific systems addressed in your le:::er,
       action has already been taken to eliminate any discrepancies




                                        23
              Appendix D. DFAS Comments on IG, DOD, Memorandum




between   the DIST and the EFAS quarterly   rcpnr:   cr. Year   2OOC
phases and strategy. In addition, a nmSer    of zke .s-ycrems
identified in jfour report are mixed syste??.:a
                                             and are not the
responsibility of 3?AS. For example, (j_qDpS-s'F.&fant;
PNCMIS are Navy systems.   Some of the systeas shoulci n_;t be
tracked in the EIS'T such as UPRIM and CIX.   AcTLion has been
cake? to rectify these situations.

~FAS is taking aggressive action to address the DIST a::.d
'"ear
A     2GCO issues.




                             24
Part III - Management Comments
DFAS Management                                  Comments

                    DEFENSE             FINANCE          AND        ACCOUNTING           SERVICE

                                         1911   JEFFERSON           DAVIS    HIGHWAY
                                            ARLINGTON.         “A    222FD-S29     I




     DFAS-KQ/S


     MEMO3AN22E4              FSR      INSPSCTOR         GENERAL,           DEPARTYENT   OF   DEFY.NSE




               &..l.thocgk.this particular   repot-;     contains      :-I=  findings or
     recmuner.dot             Cefer!se Finance and Accouccinq
                              ~c.ns,                                        Ser;rce
     (ZTAS\, *I .i .I .J rake rhe ODporruni~v        zo forward some "Ommer:t.s,
     co requesr a minor change, a&             to Ci.driij'       an 8=4E3     of
     responsibility.

           First, It is requested   rh.3::r:here be a minor cixr.ge to
     the came of the KSpCiZ    tC "Year 20'JC Initiatives   for the
     3eferise lr.tcgrated Support 'l'oo.lsDatabase  Reporr.ing at
     3efer:se Fi;lance and Acco2nzir.g Service   (DFAS) &? [)k-;>-:
                                                               ._
     Clevel.and C:enr.er".

           Second, any changes made =c the Cefer.sc Z'r,tegrat.ed
     Suppcrt   Tocl !DIST! database are the responsibility   of ZF'AS-
     xq/s.   Editorship  of the GIST was p.over dalegazed  down to
     the Ccr.ter level..

            Lastiy,  SFAS-HQ/S    has beer. revie.4ir.g LIhe DIST and the
     areas of inccmpleteness         addressed   in ycur sarlier
     correspondence.      This exercise      will be an cngoin.2 process.
     Kowever,    t-e GIST  has  beer.    inaccivarea  tiue T;s ;ts secuzixy
     c ‘==sificaticn
       :.
        __              of Secret.       DFAS cannot guarantee    that all
     data will be updated      i.n the GIST by the criginal       tcrgccl date
     of .%;zril 1993.    'i.ietarqct date will be adj~stf?:i .bc:::ord.ir.g
     z C _-he t:meframe   thai r.he TaTST is unavailable       for ~priaLI.r!g.




                                                               28
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Deputy Director for Information Management
   Director, Defense Finance and Accounting Service Cleveland Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Information Systems Agency
Inspector General, Defense Intelligence Agency




                                          25
                                                    Appendix E. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           26
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.


F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Geoffrey L. Weber
Phillip L. Holbrook, Jr.
Anthony L. Carbone
William C. Coker
A. Dahnelle Alexander
Velma E. Garcia-White
Susanne B. Allen
Gerrye Erwin
Traci Y. Sadler
       DRAFTOFA
PROPOSED   AUDiT   REPORT


                            .




     DMOFA
PROPOSED AUDIT REPORT
